NO. 20-287
In the

Supreme Court of the United States
ERNEST JOHNSON,
Petitioner,
V.

ANNE L. PRECYTHE, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the Supreme Court Bar and,
as required by Supreme Court Rules 33.1(h) and 33.1(g)(iii), the Reply Brief for the
Petitioner contains 2,993 words, excluding the parts of the petition that are exempted
by Supreme Court Rule 33.1(d).
Dated: November 23, 2020

Respectfully submitted,

Arn Jacobsen

